Office of Inspector General


January 15, 2010

MEMORANDUM

TO:               USAID/Dominican Republic Director, Richard Goughnour

FROM:             Acting Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:          Review of USAID/Dominican Republic’s PEPFAR-Funded Activities and
                  Commodities for the Prevention of Mother-to-Child Transmission of HIV
                  (RIG San Salvador Memorandum 1-517-10-001-S)

This memorandum transmits our final information report on the subject review. We have
considered management’s comments on the draft information report. Mission comments
have been included in their entirety in appendix I.

On the basis of your management comments we determined final action has been taken
on recommendations 2, 3, and 4 and a management decision has been reached on
recommendations 1 and 5. A determination of final action for recommendations 1 and 5
will be made by the Audit Performance and Compliance Division upon completion of the
planned corrective actions

I want to express my appreciation for the cooperation and courtesy extended to my staff
during the review.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel (503) 2501-2999 - Fax (503) 2228-5459
www.usaid.gov/oig
                                        SUMMARY

As of the end of fiscal year (FY) 2008, USAID/Dominican Republic reported that it had
exceeded its targets for one of the four program indicators for tracked activities for the
prevention of mother-to-child transmission (PMTCT) of HIV/AIDS. 1 The following table
illustrates the results that the mission reported for FY 2008.

PMTCT Performance Indicators for FY 2008
                                                                           Percentage
                     Indicators                      Target     Actual      Reported
                                                                            Achieved
    Number of service outlets providing the
    minimum package of PMTCT services
                                                       15        131           873
    according to national and international
    standards
    Number of pregnant women who received HIV
    counseling and testing for PMTCT and            108,037     96,675          89
    received their test results
    Number of HIV-infected pregnant women who
    received antiretroviral prophylaxis for PMTCT    1,355      1,281           95
    in a PMTCT setting
    Number of health workers trained in the
    provision of PMTCT services according to          131          0             0
    national and international standards

The mission relied on consolidated results reported by its prime contractor, Family
Health International (FHI), and incorporated them in its annual performance reporting.
Numerous organizations had contributed to the overall results. However, the mission did
not have the underlying details to show which organizations had contributed and how
much. Therefore, we were unable to verify independently that the mission’s reported
results were accurate.

The review identified four issues that USAID/Dominican Republic should address. First,
obstacles in the testing and counseling process have made the program less effective
Second, the mission could not demonstrate whether or how it had verified the accuracy
of FHI’s performance data that the mission had relied upon. Third, the mission had not
completed data quality assessments for the four major performance indicators in the FY
2008 PMTCT program within the 3 years before submission. Fourth, the mission had
not updated its performance management plan since 2005.

To address these issues, this review includes five recommendations for the mission’s
action. We recommend that USAID/Dominican Republic:

     Work with its counterparts in the Government of the Dominican Republic, to develop
      and implement a plan of action to address improved testing and counseling for
      pregnant women.

     Develop specific procedures to require that the contracting officer’s technical
      representative and activity manager document the cross-checking and verification of
1
    HIV/AIDS—human immunodeficiency virus/acquired immunodeficiency syndrome


                                                                                        2
      reported data used to make management decisions and maintain support of their
      verification of reported results.

     Develop and implement a plan to regularly perform and document site visits that
      includes assessing progress, validating reported data, and verifying partners’
      monitoring of service providers.

     Establish and implement procedures to require completion of data quality
      assessments for all performance indicators before the results are submitted for
      publication in annual or external reports in accordance with applicable guidance.

     Complete and implement an updated performance management plan for its
      prevention of mother-to-child transmission activities.

The mission agreed with each of the recommendations. The Office of Inspector General
determined that final action has been taken on recommendations 2, 3, and 4 and a
management decision has been reached on recommendations 1 and 5.


BACKGROUND

The U.S. President’s Emergency Plan for AIDS Relief was launched in 2003 to combat
global HIV/AIDS. On July 30, 2008, the Tom Lantos and Henry J. Hyde United States
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of
2008 2 was signed into law, authorizing $48 billion for the 5-year period beginning
October 1, 2008, to combat global HIV/AIDS, tuberculosis, and malaria.

There were approximately 230,000 births in the Dominican Republic during 2007. The
Joint United Nations Program on HIV/AIDS estimated the HIV prevalence rate among
pregnant women to be 1.7 percent during the same year. USAID/Dominican Republic’s
HIV/AIDS activities include prevention of mother-to-child transmission (PMTCT) of HIV.

The HIV/AIDS goals pertaining to PMTCT through FY 2008 in the Dominican Republic
were to (1) have 15 service outlets providing the minimum package of PMTCT services
according to national and international standards, (2) provide counseling and testing for
PMTCT and the results to 108,037 pregnant women, (3) provide antiretroviral
prophylaxis for PMTCT to 1,355 HIV-infected pregnant women, and (4) train 131 health
workers to provide PMTCT services according to national and international standards.

Mission-funded HIV/AIDS activities related to PMTCT are implemented through the
following contracts:
     USAID/Dominican Republic awarded a $34.9 million, 5-year contract to Family
      Health International (FHI) in 2002. Under the contract, FHI would assist in
      implementing a program in HIV/AIDS prevention and mitigation. The mission
      extended the contract for an additional 12 months, through September 2008,
      including the reprogramming of activities. This extension focused in part on PMTCT
      activities. Specifically, FHI was to work on PMTCT prevention, update PMTCT


2
    Public Law 110–293, 122 Stat. 2918.


                                                                                       3
    norms and protocols, and strengthen and continue to support PMTCT services in
    selected provinces.

   USAID also entered into a $16.2 million, 5-year contract with the Academy for
    Educational Development (AED) in February 2008. Under the contract, AED would
    (1) provide technical assistance, institutional strengthening, and support to the
    Government of the Dominican Republic (GODR) for the implementation of HIV/AIDS
    prevention, treatment, and care programs, (2) implement a grant program for the
    implementation of HIV/AIDS prevention, treatment, and care programs, and (3)
    provide technical assistance to HIV/AIDS program subrecipients.

The mission’s initial HIV/AIDS program began in October 2004 and ended on
September 30, 2008. The mission’s current 5-year phase is from October 1, 2008, to
October 1, 2012.


                                  REVIEW RESULTS

As of the end of FY 2008, USAID/Dominican Republic reported that it had exceeded its
targets for one of the four program indicators for the mission’s PMTCT tracked activities.
The mission reported that it had exceeded its target for the number of service outlets
providing the minimum package of PMTCT services according to national and
international standards. The mission also reported that it had almost met its planned
target for the number of HIV-infected pregnant women who had received antiretroviral
prophylaxis for PMTCT in a PMTCT setting.

According to mission officials, USAID/Dominican Republic was unable to achieve its
targets for the number of pregnant women who had received HIV counseling and testing
for PMTCT and received their test results, or for the number of health workers trained to
provide PMTCT services according to national and international standards.

The mission did not achieve its target for the number of pregnant women who had
received HIV counseling and testing for PMTCT and received their test results; two
contributing reasons are discussed below.          According to mission officials,
USAID/Dominican Republic did not meet its targets for the number of health workers
trained because a new implementing partner, the Centers for Disease Control and
Prevention (CDC), had a late start in implementing its portion of the PMTCT program
and delayed the program’s progress.

The review identified four areas in which USAID/Dominican Republic should address.
First, obstacles in the testing and counseling process have made the program less
effective. Second, the mission could not demonstrate whether or how and if it had
verified the accuracy of FHI’s performance data that the mission had relied upon. Third,
data quality assessments for the four major performance indicators in the FY 2008
PMTCT program had not been completed within the 3 years before submission. Fourth,
the mission had not updated its performance management plan since 2005. These
issues are further addressed below.




                                                                                        4
Coordination Efforts With the Host Government
Could Improve Program Effectiveness

The mission did not achieve its FY 2008 target of 108,037 pregnant women who had
received HIV counseling and testing for PMTCT and had received their test results.

According to mission reports, only 89 percent of the targeted 108,037 pregnant women
had received HIV counseling and testing for PMTCT and had received their test results.
However, according to a CDC official, 98 percent of Dominican women have at least one
prenatal evaluation. Therefore, it was unclear why more women were not receiving
testing and counseling during the prenatal evaluation.

Two factors contributed to the mission’s inability to achieve its testing and counseling
performance target. First, the general procedures for women seeking prenatal care
involve asking the women to have five or six tests conducted, one of which is the
HIV/AIDS rapid test. The HIV/AIDS test is free, but the other tests cost approximately
$25 3 —possibly a significant portion of monthly income. 4 The hospital officials often
advise women to come back when they have the money and have all of the tests done
at the same time. Sometimes the women do not come back, however, and they never
receive the HIV/AIDS test.

Second, Government of Dominican Republic (GODR) officials said that, according to a
policy of the Ministry of Health (MOH), only certified laboratory technologists may
evaluate and determine the results of HIV/AIDS rapid-test kits. Because the test kits
must be sent to laboratories for review by the laboratory technologists, most pregnant
women do not receive their HIV/AIDS test results on the same day that the test is
administered, and many never return to obtain their results.              The Dominican
biotechnologists have a strong union, and because of political pressures in the country
they have lobbied to maintain their exclusive right to perform the HIV/AIDS rapid tests.

As a result of these hospital and government policies, fewer women are being tested
and obtaining their results quickly.

USAID/Dominican Republic cannot make decisions unilaterally to effect changes in
these areas. However under the partnership framework between the GODR and the
United States to support implementation of the Dominican National Strategic AIDS plan,
the mission could try to collaborate further with the GODR to remove obstacles that
reduce the effectiveness of the mission’s PMTCT activities. Therefore, we are making
the following recommendation:

    Recommendation 1. We recommend that USAID/Dominican Republic, in
    conjunction with its counterparts in the Government of the Dominican Republic,
    develop and implement a plan of action to address improved testing and
    counseling for pregnant women.

3
  The approximate cost of $25 is the U.S. dollar equivalent to 840 pesos, converted at the
average exchange rate for 2008.
4
  During 2008, the minimum wage for individuals working in the public sector was about $77 per
month. The minimum wage for individuals working for companies in the free trade zone was
about $144 per month.


                                                                                            5
Mission Needs To Verify Reported Information
and Assess Data Quality

According to USAID policy, to be useful in managing for results and credible for
reporting, USAID missions and assistance objective teams should ensure that the
performance data in the performance management plan for each assistance objective
meet specific standards (Automated Directives System (ADS) 203.3.5.1). ADS further
states that when assistance objective teams conduct data quality assessments of data
from secondary sources (including implementing partners, host government
counterparts, and international agencies) they should focus the assessment on the
data’s apparent accuracy and consistency (ADS 203.3.5.3 b). In many cases,
assistance objective teams can compare central office records with the records kept at
field sites. Assistance objective teams should consider visiting a broad range of sites to
assess whether reports accurately reflect events in the field. Moreover, ADS states that
data reported to USAID/Washington for purposes of the Government Performance and
Results Act of 1993 5 or for reporting externally on Agency performance must have had a
data quality assessment within the 3 years before submission (ADS 203.3.5.2). USAID’s
Guidebook for Managers and Cognizant Technical Officers on Acquisition and
Assistance states that contracting officer’s technical representatives (COTR) 6 are
responsible for ensuring the accuracy of all reports submitted by their contractors.

The mission could not provide detailed documentation of whether or how it had verified
the accuracy of FHI performance data that it had relied upon. Furthermore, data quality
assessments for the four major performance indicators in the FY 2008 PMTCT program
were not completed within the 3 years before submission. Mission officials explained
that on occasion they had accompanied FHI staff to visit the hospitals, and during those
visits they would verify the accuracy of FHI’s reported results with hospital records.
Mission officials noted that sometimes the hospitals were not counting their results
correctly. However, the mission could not support how often these visits had been made
or what corrective actions had been taken when these discrepancies were observed.
Furthermore, mission officials commented that no visits had been made during FY 2008.

The mission could not support when or how it had verified the accuracy of the
performance data because the COTRs, who have the first line of responsibility for
ensuring accuracy, were not documenting their site visits. As part of their visits, COTRs
could have assessed the accuracy of the contractor’s progress data. The mission did
not conduct quality assessments of the data submitted by FHI because the mission was
relying on FHI’s validation of the MOH data. Therefore, the mission could not
demonstrate its degree of compliance with USAID policy.

The mission’s HIV/AIDS activities rely on accurate data to support the programs and
demonstrate progress toward goals. Therefore, performance data verification and data
quality assessments are critical to the program. However, USAID/Dominican Republic
did not have reasonable assurance that data quality for published results met validity,
timeliness, and reliability standards, without which the mission could not make sound

5
  Public Law 103–62.
6
  The designation “cognizant technical officer” was changed to “contracting officer’s technical
representative” on January 23, 2009. [



                                                                                             6
performance-based management decisions. To address the need to complete the data
quality assessments for all PMTCT performance indicators and to establish controls
requiring assessments in the required timeframes, we recommend the following:

   Recommendation 2. We recommend that USAID/Dominican Republic develop
   specific procedures to require that the contracting officer’s technical
   representative and activity manager document the cross-checking and
   verification of reported data used to make management decisions and maintain
   support of their verification of reported results.

   Recommendation 3. We recommend that USAID/Dominican Republic develop
   and implement a plan to regularly perform and document site visits that includes
   assessing progress, validating reported data, and verifying partners’ monitoring
   of service providers.

   Recommendation 4. We recommend that USAID/Dominican Republic establish
   and implement procedures to require completion of data quality assessments for
   all performance indicators before the results are submitted for publication in
   annual or external reports in accordance with applicable guidance.


Performance Management Plan
Was Not Updated

ADS 203.3.3 states that assistance objective teams must prepare a complete
performance management plan (PMP) for each assistance objective for which they are
responsible. It also notes that the PMP is a tool to plan and manage the process of
monitoring, evaluating, and reporting progress toward achieving an assistance objective.
Further ADS 203.3.4.5 states that the plan should include performance indicators, such
as baselines, and the plan should set performance targets that are ambitious but
realistic—targets that can be achieved within the stated timeframe and with the available
resources. ADS 203.3.4.6 states that as part of the mission’s annual portfolio review
process, assistance objective teams should update performance management plans
regularly with new performance information as assistance objectives develop and
evolve.

USAID/Dominican Republic had not updated its PMP since 2005. Furthermore, the
PMP included outdated information because mission management had not required the
assistance objective team to update the plan to reflect the new performance indicators.
Mission officials said that some targets were either significantly over achieved or not
achieved at all because the Office of the U.S. Global AIDS Coordinator mandates the
targets, which in some cases are much higher than the host government is willing to
attain. Moreover, some targets had been based on certain assumptions that did not
come to fruition, and the mission had not adjusted the plan to include the updated
information. For example, the mission had established the targets on the assumption
that the FHI contract would expire in 2007 but did not adjust the targets to reflect the
contract’s extension from April 2007 through September 2008.

Without an updated performance management plan, USAID/Dominican Republic lacks a
critical tool for planning, managing, and documenting the performance of its program



                                                                                       7
activities. Moreover, the mission does not have sufficient assurance that it is
maintaining controls essential to the operation of a credible and effective performance-
based management system. As a result, we recommend the following action to address
this issue.

   Recommendation 5. We recommend that USAID/Dominican Republic complete
   and implement an updated performance management plan for its prevention of
   mother-to-child transmission activities.




                                                                                      8
                 EVALUATION OF MANAGEMENT COMMENTS

In response to the draft information report, USAID/Guyana provided written comments
that are included in appendix I to this report.

In its comments dated December 22, 2009, USAID/Guyana stated that it agreed with
each of the recommendations. On the basis of an evaluation of the mission’s response
to the draft information report, the Office of Inspector General determined that final
action has been taken on recommendations 2, 3, and 4 and a management decision has
been reached on recommendations 1 and 5. A determination of final action for
recommendations 1 and 5 will be made by the Audit Performance and Compliance
Division upon completion of the planned corrective actions.
                                                                                Appendix I


Management Comments

   UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                             Santo Domingo, Dominican Republic

                                                            UNITED STATES GOVERNMENT
                                                       ACTION MEMORANDUM

Date:      December 22, 2009

To:        Catherine Trujillo, Regional Inspector General/San Salvador

From:      Luis García, Acting Mission Director

Subject: Review of USAID/Dominican Republic’s PEPFAR-Funded Activities and
         Commodities for the Prevention of Mother-to-Child Transmission of HIV
         (RIG San Salvador Memorandum 1-517-10-001-S).


This is in response to your Memorandum dated December 1, 2009. We hereby submit
our comments and planned corrective actions, where appropriate, to you, in connection
with subject draft report and each one of the recommendations addressed in it.

Comments on Recommendation no. 1

USAID agrees with this recommendation, although we note that it is relatively open-
ended. The PEPFAR program, as RIG is aware, goes through FY 2013, and the PMTCT
program really will not be fully implemented until the end of that time. The other issue is
that since PEPFAR provides only technical, material and other support assistance to the
GODR, we do not actually “implement a plan of action.” That having been said and as
part of the PEPFAR/DR Team and with Dominican partners, USAID will develop a plan
to strengthen the PMTCT program, including the counseling and testing component, in
the context of the PEPFAR five-year Partnership Framework Implementation Plan
(PFIP), which will be prepared and sent to OGAC by the end of January 2010. The PFIP
will guide the implementation of the USG HIV/AIDS program, including PMTCT and
CT, over the next five years, through FY 2013.

Comments on Recommendations no. 2, 3, and 4

USAID suggests that these Recommendations be closed.

The Mission Order (MO) on Monitoring and Evaluation was recently approved by the
USAID Mission Director. It provides specific guidelines for Monitoring and Evaluation
(M&E) and assigns responsibilities for the different tasks involved in the monitoring and
evaluation process (monitoring, collection of information, inspection, evaluation, and
data quality control), in accordance with the ADS.
The MO specifies M&E responsibilities of the technical offices, including the following:

       Perform a data quality assessment (DQA) at least every three years for all
        performance indicators that are reported to USAID/Washington;

       Monitor and verify the accuracy of reported results by regularly conducting site
        and field visits to review data collection and documentation at its source;

       Develop and implement a plan to regularly perform and document site visits that
        include assessment of progress and validation and verification of reported data
        for which a site visit report form is in place.

       Identify, based on routine PMP analysis and other information, areas or activities
        which require in-depth/formal evaluations.

       Establish an annual evaluation plan in conjunction with the Program Office and
        the Mission Monitoring and Evaluation Specialist.

Comments on Recommendation No. 5

USAID agrees with this recommendation and will work with the PEPFAR program to
respond. The process for developing the PEPFAR/DR Implementation Plan includes
consultation with Dominican partners and other cooperating agencies over the indicators
to be collected, baselines and targets. This process must be completed before the PMP
can be updated. PEPFAR will work on the indicators for the HIV/AIDS program, and
since this is the largest section of the USAID/health office PMP, this will be the basis for
the revision and updated mandated by the recommendation. The Implementation Plan,
including indicators, must be completed and sent to OGAC/Washington by January 29,
2010.

Please let us know if you need further clarifications from us regarding these items.

Regards.


“/s/”
Luis F. García, Acting Mission Director




                                                                                          11
